WAIVER

Supreme Court, U.S.
FILED

Supreme Court of the United States

MAY 1 8 2020
OFFICE OF THE CLERK

No. 19-1270

Steven D. Fodge, et al.
(Petitioners)

v.

Trustmark National Bank, et al.
(Respondents).

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
X There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Ocwen Loan Servicing, LLC

I am a member of the Bar of the Supreme Court of the United States.

0

x

I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
Signature

Is/ Stephen W. Rider

Date:

May 15, 2020

(Type or print) Name

Stephen W. Rider
XMr.

0 Ms.

Firm

McGlinchey Stafford, PLLC

Address

601 Poydras St., 12th Floor

City & State

New Orleans, LA

Phone

504-596-2798

0 Mrs.

0 Miss

Zip

70130

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc:

Dennis P. Derrick, 7 Winthrop Street, Essex, MA 01929
John S. Odom, Jr., 2124 Fairfield Ave., Shreveport, LA 71104
Anthony K. Bruster, Edward K. Chin, 68.0 N. Carroll Ave., Ste
110, Southlake, TX 76092
Chad Trammell, 418 N State Line Av., Texarkana, AR 71854

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
.supremecourtus.gov. Have the Supreme Court docket number available.

MAY 21 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

mcglinchey
Stephen W. Rider
Attorney at Law
T 504-596-2798 F 504-910-9566
srider@mcglinchey.com

McGlinchey Stafford PLLC
601 Poydras Street, Suite 1200
New Orleans, LA 70130

May 18, 2020
VIA FEDERAL EXPRESS
United States Supreme Court
Attn: Clerk's Office
15` Street NE
Washington, DC 20543
RE:

Stephen D. Fodge, et al v Trustmark national Bank, et al.
Supreme Court of the United States, Case No. 19-1270

Dear Sir or Madam:
Enclosed please find Ocwen Loan Servicing, LLC's Waiver in the above referenced matter, which we would
you appreciate you filing into the record.

Sincerely,
McGlinchey Stafford PLLC

/s/ Stephen W. Rider
Stephen W. Rider
SWR/swf
Enclosure
cc:
Counsel of Record (w/encl.)
2751164.1

mcglinchey.com

RECEIVED
MAY 2 1 2020
THE CLERK

SUPREMECOURT, U.S.

Albany Baton Rouge Birmingham Boston Cleveland Dallas Fort Lauderdale Houston
Irvine Jackson Jacksonville Nashville New Orleans New York City Washington, DC

